!

CERTIFICATE OF SERVICE
I hereby certify that on this 3rd day of August, 20211 caused the foregoing APPENDIX to be
served via U.S. mail to respondents below:

Mr. Previn Warren c/o JENNER BLOCK LLP
1099 New York Ave., NW suite 900
Washington D.C. 20001
Counsel for Sony Music Entertainment, UMG Recordings, Inc., Sony/ATV Music Publishing LLC,
And Warner Music Group Corp.

Mr. Matthew Kelley c/o BALLARD SPAHR
1909 K street NW 12th Floor
Washington D.C. 20006-1157
Counsel for Universal Pictures.

DATED: August 3rd, 2021

Moreh J. Buchanan
10153 Royal Dr.
St. Louis, Missouri 63136

(314)412-8589

7

CERTIFICATE OF SERVICE
I hereby certify that on this 24th Day of June, 20211 caused the foregoing request to be
served via U.S. mail to respondents below:

Mr. Previn Warren c/0 JENNER BLOCK LLP
1099 New York Ave., NW suite 900
Washington D.C. 20001
Counsel for Sony Music Entertainment, UMG Recordings, Inc., Sony/ATV Music Publishing LLC,
and Warner Music Group Corp.

Mr. Matthew Kelley c/o Ballard Spahr
1909 K street NW 12th Floor
Washington D.C. 20006-1157
Counsel for Universal Pictures.

DATED: June 24th, 2021

Moren J. Buchanan
10153 Royal Dr.
St. Louis, Missouri 63136
i

(314)412-8589

6

